<html>
<title> - PUBLIC/PRIVATE RESPONSIBILITY FOR FUNDING NATIONAL TREASURES: THE SMITHSONIAN INSTITUTION AND THE JOHN F. KENNEDY CENTER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   PUBLIC/PRIVATE RESPONSIBILITY FOR FUNDING NATIONAL TREASURES: THE 
         SMITHSONIAN INSTITUTION AND THE JOHN F. KENNEDY CENTER

=======================================================================

                                (110-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
36-683                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Kaiser, Michael, President, John F. Kennedy Center for the 
  Performing Arts................................................     3
Samper, Cristian, Acting Secretary, Smithsonian Institution......     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Graves, Hon. Sam, of Missouri....................................    38

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kaiser, Michael M................................................    42
Samper, Cristian.................................................    45

                       SUBMISSIONS FOR THE RECORD

Samper, Cristian, Acting Secretary, Smithsonian Institution, 
  responses to questions from the Subcommittee...................    53

[GRAPHIC] [TIFF OMITTED] T6683.001

[GRAPHIC] [TIFF OMITTED] T6683.002

[GRAPHIC] [TIFF OMITTED] T6683.003

[GRAPHIC] [TIFF OMITTED] T6683.004



    PUBLIC AND PRIVATE RESPONSIBILITY FOR MAINTAINING OUR NATIONAL 
 TREASURES: THE SMITHSONIAN INSTITUTION AND THE JOHN F. KENNEDY CENTER

                              ----------                              


                         Friday, June 15, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:45 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [chairman of the subcommittee] Presiding.
    Ms. Norton. Well, I apologize. Well, I have to apologize 
for the House of Representatives because we had a backlog of 24 
votes. I do not believe that there has ever been that kind of 
backlog before. It was because of an issue that arose on the 
floor before, and not only are you being detained, but 
witnesses all over the House are being detained. So you have 
our apologies.
    I would like to say good morning while it still is good 
morning, and welcome to today's witnesses. I am pleased to 
welcome our distinguished panel. Excuse me a minute.
    I am sorry. That was my first version.
    Mr. Kaiser, I understand that you have an appointment, and 
I am going to let you go first, and Mr. Graves has indicated he 
will come when he can. He is our Ranking Member.
    I am pleased to welcome our distinguished panel and our 
witnesses to this hearing on public and private responsibility 
for maintaining our national treasures, the Smithsonian 
Institution and the John F. Kennedy Center for the Performing 
Arts, and I look forward to today's testimony.
    These historic institutions are unique, priceless and 
irreplaceable, and they must be maintained in splendor and 
dignity for the American people. The John F. Kennedy Center is 
not only a premier performing arts center, but also a 
Presidential memorial like the Washington Monument and the 
Lincoln Memorial. The Smithsonian contains major artifacts 
reflecting American art, culture and development. These 
historic institutions have a rich history.
    Initial funding for the construction of the John F. Kennedy 
Center came from gifts, donations and contributions in the 
amount of approximately $34.5 million. The total construction 
cost of the building was approximately $78 million, and the 
Kennedy Center later opened in 1971. The Kennedy Center became 
a living memorial to President Kennedy, and it remains a 
tribute to the love and appreciation of the arts. Today the 
Kennedy Center plays host to theater, ballet and a variety of 
musical genres and multimedia performances for all ages.
    The Smithsonian Institution was established after an 
English businessman James Smithson bequeathed $500,000, and 
Congress appropriated the interest from the initial endowment 
to establish the Smithsonian Institution. Since its founding, 
the Smithsonian has become a unique complex of world-class 
museums and galleries, educational showplaces, and unique 
research centers; and it has continued to grow with trust 
funds, donations from American culture and life and financial 
contributions. However, most of its funding continues to come 
from Federal appropriations. Today, the Smithsonian Institution 
has 19 museums and galleries, 9 research facilities, the 
National Zoo, and the National Museum of African American 
History and Culture, now approved by Congress, is seeking 
funding.
    The Kennedy Center also gets some Federal funding to 
maintain the facility, but must raise considerable private 
funds. The Smithsonian under former Secretary Lawrence Small 
raised $1 billion in private donations, an impressive sum, and 
the kind of private funding the institution should continue to 
try to obtain. However, according to press reports, the 
Smithsonian Board of Regents approved several controversial 
expenditures by Mr. Small. The former Secretary consequently 
resigned amidst several allegations, including overspending on 
our housing allowance, personal use of the Smithsonian 
artifacts, in addition to a number of expenses having 
insufficient or no justification. The Regents have now 
responded by creating an independent review board to monitor 
and examine expenses, as well as a governance committee to 
examine board actions and responsibilities.
    The conduct of the former Secretary was clearly 
inappropriate. However, its offensive nature over a number of 
years raises serious questions concerning oversight by the 
Board of Regents and by Congress. The self-study and 
corrections by the Regents that are resulting are nothing short 
of mandatory, but in light of the seriousness of the issues 
raised and the public criticism of a major American institution 
that depends on Federal funding, Congress would be remiss if we 
left the Smithsonian to its own oversight alone once again.
    Larger questions concerning the appropriate mix of 
congressional and private funding and how to achieve both are 
raised, as well as congressional neglect of the Smithsonian and 
of its congressional funding responsibilities and the 
composition of the Board, consisting of distinguished 
Americans, many with enormous and overriding public 
responsibilities elsewhere, which clearly did not leave them 
sufficient time to meet their fiduciary obligations.
    The disturbing idea of an admission fee into the Butterfly 
Habitat Garden was recently proposed. The fact that the 
Smithsonian has remained free and open to the public for its 
entire history is an important and a distinguished legacy to 
maintain. If that tradition is to be changed, Congress should 
look very closely at why a change is necessary, and only 
Congress should make such a change.
    I am interested in seeking alternatives and options. 
Whether gradual or rapid, if one of our institutions or 
exhibitions gets a pass, in fairness there will be no reason to 
deny the same to others.
    Providing unfettered access to America's rich cultural 
heritage in the Nation's Capital is a cherished tradition we 
must strive to maintain. This hearing provides a useful 
opportunity to look seriously at both of these revered 
institutions for the purpose of comparing the Board oversight, 
fundraising and other practices. As different from one another 
as they are, both are Federal treasures. We hope that this 
hearing on both may fertilize the search for solutions to 
issues affecting each.
    I will soon introduce legislation that I believe is 
appropriate under the circumstances. The Kennedy Center and the 
Smithsonian continue to live up to their informal designation 
as "national treasures"; however, the time is overdue to take a 
fresh look at these iconic American institutions to assure the 
American public that they are equipped to meet 21st century 
challenges. We look forward to the testimony of the top 
executives from both the Smithsonian and from the John F. 
Kennedy Center concerning how they see these challenges and the 
viability of these two great American institutions.
    Thank you very much.
    The Ranking Member is not here, so I will proceed 
straightaway to Mr. Kaiser.
    Mr. Kaiser. I will submit my testimony for the record to 
allow you to have time for questions, Madam Chairman.
    Ms. Norton. I would like you to say something, Mr. Kaiser.
    Mr. Kaiser. You would like me to say something?
    Ms. Norton. I certainly would. You may summarize your 
testimony.
    Mr. Kaiser. Yes, ma'am.
    I will talk about how----
    Ms. Norton. You may summarize your testimony for 5 minutes. 
That would be helpful.

TESTIMONY OF MICHAEL KAISER, PRESIDENT, JOHN F. KENNEDY CENTER 
FOR THE PERFORMING ARTS; AND CRISTIAN SAMPER, ACTING SECRETARY, 
                    SMITHSONIAN INSTITUTION

    Mr. Kaiser. I will do that, ma'am. I will leave out the 
sections that discuss the programming itself, and talk about 
how that programming is funded.
    Kennedy Center programming is supported by a mix of 
government, private and earned income. As a Presidential 
memorial, the Center receives an annual Federal appropriation 
of approximately $35 million per year. I should point out that 
the direct Federal funding provided to the Kennedy Center is 
used only for the operation, maintenance and capital repair of 
the Presidential monument.
    The Kennedy Center building consists of 1.5 million square 
feet of usable floor space on 17 acres of land. The building 
contains nine theaters, two public restaurants, nine special 
event rooms, five public galleries, halls and foyers, and 
approximately 50,000 square feet of administrative offices.
    Over the next 24 months, we will conclude a 10-year 
renovation project that has included major renovations of our 
concert hall, opera house, Eisenhower Theater, and grand foyer, 
and has included a major redesign of our grounds and an 
installation of updated security and life safety systems. These 
projects have all been funded by congressional appropriations; 
however, our original statute prohibits the use of these 
Federal funds for any programming expenses.
    The extensive programming and education activities at the 
Center that it presents and provides are supported through 
private contributions of almost $50 million annually, not 
counting other government grants or endowment earnings, which 
total an additional $20 million each year. In addition, the 
Center earns approximately $65 million each year from ticket 
sales, parking fees, food service, space rental, and our gift 
shops. In sum, government funding represents one-quarter of our 
total annual operating budget. We are deeply grateful for the 
support.
    My experience at the Kennedy Center mirrors my experience 
at other arts organizations that I have managed both in the 
United States and abroad. At the Alvin Ailey American Dance 
Theater, at the American Ballet Theater and at the Royal Opera 
House, a substantial portion of the budget was covered by 
private contributions. The majority of this funding came from 
individual donors, with substantial additional support from 
corporations and foundations. In every case strong artistic and 
educational programming was the key to private fundraising. An 
aggressive marketing campaign and a strong board of directors 
were also prerequisites. Fortunately, I am blessed with each of 
these assets at the Kennedy Center.
    I thank the subcommittee for its continued support of the 
Kennedy Center, and I am pleased to answer any questions that 
members of the subcommittee may have.
    Thank you very much.
    Ms. Norton. Thank you. Thank you, Mr. Kaiser.
    Ms. Norton. Dr. Samper.
    Mr. Samper. Thank you, Madam Chair, and thank you for the 
opportunity to testify before this committee today.
    We are grateful for the support of the administration and 
of the Congress and look forward to working with you to make 
the Smithsonian even stronger.
    As you mentioned, the Smithsonian is the world's largest 
museum and research complex. Historian David McCulloughrecently 
described the Smithsonian as a storehouse of ideas, and it is 
that and much more, thanks to the people here. Thanks to them, 
we offer accurate, insightful and inspiring experiences. The 
Smithsonian has a talented workforce of more than 6,000 
employees, scientists, historians, educators, curators, 
custodians, and many more, and they all do a great job in 
caring for our world-class collections, expanding our premier 
research, and presenting the story of what it means to be an 
American.
    The Smithsonian is a public-private partnership that was 
established back in 1846 thanks to a generous bequest from 
British scientist James Smithson with the mission of the 
"increase and diffusion of knowledge." as structured by 
Congress, it is a unique entity, an independent trust 
establishment of the United States. The House select committee 
that originally considered the Smithsonian bequest was chaired 
by former President and Congressman from Massachusetts John 
Quincy Adams.
    Supreme Court Justice Holmes wrote back in 1928, and I 
quote, "Congress long ago established the Smithsonian 
Institution, to question which would be to lay hands on the Ark 
of the Covenant," end of quote.
    This certainly does not mean that the governance of the 
Institution is above scrutiny. As you mentioned, the Board of 
Regents has appointed a three-person independent review 
committee to review the issues relating to compensation and 
expenses, which you mentioned, and we expect to have their 
report available on June 20th, and we also look forward to 
reviewing and implementing their recommendations.
    The Board of Regents has also created a new Permanent 
Committee on Governance, and this report will be considered by 
the Regents at a meeting next Monday. We will work with 
Congress to improve accountability and to expand the valuable 
service that the Smithsonian offers to the public.
    One of the biggest obstacles that we face in this effort is 
our facilities maintenance problem. Some of our buildings are 
treasures in their own right, but, more importantly, they 
enable us to educate the public, to exhibit national 
collections and to create the experience of a lifetime for our 
visitors. We are expanding that experience for learners of all 
ages around the world with more offerings on line, which is an 
expensive undertaking.
    Today the Smithsonian owns or leases more than 700 
buildings and structures in the District of Columbia, seven 
States, Panama, Belize, and Chile, a total of about 10.2 
million square feet of owned space and about 1.7 million square 
feet of leased space, with an estimated replacement value of 
$5.1 billion. Some buildings are new. Many are decades old. 
Some are 150 years old. More than half are more than 25 years 
old. It is an expensive, challenging task to care of such 
collections and to keep our workers and visitors safe, 
especially in the post-9/11 world where security is vitally 
important.
    Both the National Academy of Public Administration and the 
Government Accountability Office examined this matter and 
underscored its seriousness. The GAO said that the current 
funding levels are insufficient to provide the estimated $2.5 
billion that is required to fix and maintain the Institution's 
facilities in the coming years. The Smithsonian has 
demonstrated that, with sufficient resources, it can manage 
large, complex projects. Over the last 5 years, the 
Smithsonian's facilities' capital obligation rate has averaged 
over 90 percent.
    We have in the last few years opened two new museums, the 
Steven F. Udvar-Hazy Center of the National Air and Space 
Museum and the National Museum of the American Indian on the 
Mall. We have revitalized the historic Patent Office building, 
which now houses the Donald W. Reynolds Center, and launched, 
as you mentioned, the National Museum of African American 
History and Culture, as well as opened many new exhibitions and 
completed state-of-the-art storage facilities for our 
collections that are stored in flammable alcohol.
    The GAO Office said in its April 2007 testimony before the 
Senate Committee on Rules and Administration, and I quote, "The 
Smithsonian has done a very good job in centralizing and 
improving and professionalizing the facilities management of 
the Smithsonian and its operations over the last couple of 
years," end quote.
    Our museums, galleries and research centers house some of 
America's greatest treasures. Historically the Federal 
Government has recognized its responsibility to ensure that 
these treasures are housed, preserved and exhibited in 
facilities adequate to the task. We are grateful for the 
support and continue to work to correct this massive backlog 
and to obtain the funds that are required for the research and 
activities. With the help of Congress, we can solve these 
problems.
    Again, thank you for this opportunity, and I look forward 
to answering your questions.
    Ms. Norton. Thank you very much, Dr. Samper.
    I will ask you both: What is the percentage, on an annual 
basis, of funds from Federal appropriations that each of you 
receive?
    Mr. Kaiser.
    Mr. Kaiser. For our operating budget, 25 percent of our 
budget is covered by Federal funds.
    Ms. Norton. So, annually you receive 25 percent?
    Mr. Kaiser. For our operating budget. The Government then 
further pays for our capital costs, for 100 percent of our 
capital costs.
    Ms. Norton. I am only talking about the operating budget.
    Mr. Kaiser. Twenty-five percent of our operating budget, 
ma'am.
    Ms. Norton. Dr. Samper.
    Mr. Samper. Of the overall budget of the Smithsonian, about 
70 percent of the total budget is provided by Federal funds, 
and that would include capital investments.
    Ms. Norton. About 70 percent, did you say?
    Mr. Samper. Seventy percent of the total budget.
    Ms. Norton. Have these amounts remained, in real dollar 
terms, constant over the past several years for both of you? In 
other words, have there been increases? Are there increases for 
anything except for the cost of staff? Would you explain to me 
whether this 25 percent has been constant in terms of expenses?
    Mr. Kaiser. It has, actually, diminished slightly over time 
because the real costs of running the Center have increased 
more quickly than the government appropriation has.
    Ms. Norton. But the Government in the case of the John F. 
Kennedy Center has never intended to pay for the entire 
operating cost.
    Mr. Kaiser. That is correct.
    Ms. Norton. How do you arrive at 25 percent, Mr. Kaiser?
    Mr. Kaiser. The 25 percent comes from the appropriation of 
approximately $20 million for the maintenance of the building, 
for the annual maintenance of the building; $15 million we 
receive through the Department of Education for education 
programs both by the Kennedy Center and our affiliate VSA Arts, 
and there is a $1 million grant that comes to arts 
organizations in the D.C. area.
    Ms. Norton. So that sounds like an amount for a particular 
year.
    Mr. Kaiser. That is correct.
    Ms. Norton. Overall it amounts to about 25 percent?
    Mr. Kaiser. Overall it amounts to 25 percent.
    Ms. Norton. And that has stayed constant?
    Mr. Kaiser. As I said, it has fallen slightly because the 
real costs of running the Center have increased, and the 
Federal appropriations have increased less rapidly.
    Ms. Norton. Dr. Samper.
    Mr. Samper. Thank you, Madam Chair.
    The overall budget of the Smithsonian has increased, and 
the appropriation from the Federal Government has increased in 
the last few years, but the majority of that increase has gone 
to two areas. We have seen an increase for facilities, upgrades 
and maintenance in particular, which has allowed us to make----
    Ms. Norton. I want the operating fund, not the capital 
fund.
    Mr. Samper. What we would call the "salaries and expenses 
account" includes our maintenance budget. We have seen 
increases there, which has allowed us to improve some of our 
maintenance, and we have also seen some increases for the new 
museums that have opened specifically. But if you were to look 
at the overall account for salaries and expenses, we would see 
that the overall account has not kept up with inflation and 
with the mandatory pay increases, and that has resulted in an 
overall decrease in the overall number of FTEs available at the 
various museums across the Smithsonian.
    Ms. Norton. Mr. Kaiser, I recognize that the Kennedy Center 
is a different species of animal in some respects, but, in 
effect, it means you have to raise considerable funds on an 
annual basis.
    Mr. Kaiser. I do. I also have the benefit of ticket sales, 
which is a very substantial portion of our budget.
    Ms. Norton. And that is what I am getting to.
    What percentage comes from what you have to raise and from 
ticket sales?
    Mr. Kaiser. What we have to raise and ticket sales are 
roughly equal, within a few percentage points for the remainder 
of the budget. So, roughly, 40 percent each.
    Ms. Norton. How do you raise----
    Mr. Kaiser. Thirty-seven percent each.
    Ms. Norton. Typically how do you raise the private funds, 
Mr. Kaiser?
    Mr. Kaiser. It is like a military campaign.
    Ms. Norton. Each year?
    Mr. Kaiser. Each year, which includes four major 
components. About 55 percent of that funding comes from 
individual people, people who value the work we do.
    Ms. Norton. That is from solicitations?
    Mr. Kaiser. From solicitations that range from people who 
give us $5 a year to people who give us more than $1 million a 
year.
    Ms. Norton. Does that mean you have an annual solicitation 
campaign that you send out and ask the public for funds?
    Mr. Kaiser. That is true for the smaller-level grants. For 
the larger-level grants, it is done person to person.
    Ms. Norton. So people can contribute to the Kennedy Center?
    Mr. Kaiser. People can contribute. They can become members 
of the Kennedy Center.
    Ms. Norton. How much is your membership?
    Mr. Kaiser. Fifty dollars a year is the lowest membership, 
but we have people, again, who give us over $1 million a year, 
and there are various efforts. You do a direct mail campaign to 
raise $50. You do not do a direct mail campaign to raise $1 
million from a donor. So that is 55 percent of the fundraising. 
Twenty percent of the fundraising comes from corporations both 
in the form of corporate memberships or in the form of 
corporate underwriting for particular events.
    Ms. Norton. What do the corporations require when you ask 
them to underwrite an event?
    Mr. Kaiser. Typically corporations are looking for 
visibility, which means their names in programs, their names on 
signage, their names on advertising, et cetera. Other 
corporations are looking for corporate entertaining 
opportunities where they can bring their larger customers to 
performances. It is those two key services that a corporation 
might require.
    Ms. Norton. So, if they come to see performances, they will 
not have to pay since they paid----
    Mr. Kaiser. They will still buy tickets, but they would 
like to be able to get a group and have a dinner or such for 
their clients.
    Another 20 percent comes from events. The big events are 
four each year. The major ones are our spring gala and the 
Kennedy Center Honors, at which we raise about 20 percent in 
total for the Kennedy Center's fundraising. The remaining 5 
percent are from professionally managed foundations. Those are 
the larger foundations. They are the smallest piece of our 
fundraising effort. Each of these efforts entails a different 
kind of fundraising campaign.
    Ms. Norton. As to private fundraising, what sorts of 
increases or not have occurred since you have been at the helm?
    Mr. Kaiser. We have, roughly, doubled private fundraising 
in the last 6-1/2 years.
    Ms. Norton. How did you do that?
    Mr. Kaiser. To be quite honest, I think it is through both 
stronger programming, both educational and artistic, and then 
very aggressive marketing of that programming. In my 
experience, those are the two requirements.
    Ms. Norton. When you say the "marketing," do you mean the 
marketing of the performances?
    Mr. Kaiser. More it is the marketing of the institution. It 
is what I call "institutional marketing." it is getting people 
excited about your organization and believing nationwide that 
the Kennedy Center serves a purpose for the whole country.
    You should note, Madam Chairman, that 60 percent of our 
fundraising comes from outside of the Washington, D.C., area, 
which is a testimony to the work we have done, particularly in 
education, to be important in each State of the Union.
    Ms. Norton. How are you doing that? Since you are one 
building located in the District of Columbia, how have you 
managed to get people and others outside of the District and 
this area interested in your work?
    Mr. Kaiser. Sure. To answer that question, I need to 
separate it into two parts.
    The actual programming, doing the educational work outside, 
involves a series of activities. We bring trainers to teachers 
across America. We train 25,000 teachers a year to bring the 
arts into the classroom.
    Ms. Norton. You train them in what?
    Mr. Kaiser. To bring arts into the classroom so that, for 
example, if you are teaching American history, and you want to 
look at American modern dance and its relevancy to the civil 
rights movement, we would teach you how to do that as a history 
teacher.
    Ms. Norton. How do you teach that, by technology, or do you 
bring them here or what?
    Mr. Kaiser. We do it in three ways. We bring them here; we 
go there; and it is through technology. We run a Web site 
called Arts Edge, which allows----
    Ms. Norton. Do they pay a fee for this?
    Mr. Kaiser. No. This is all free of charge. All of our 
educational programming is free of charge, and so there is the 
effort to bring arts into the classroom across the United 
States.
    Ms. Norton. So, if you are seeking funds from rich Texas 
oil interests, you would talk about what you have done for 
teachers in the State of Texas?
    Mr. Kaiser. That is exactly correct. We have a separate 
report about each State in which we work and what we do in that 
State, and then it is a question of building interest among 
funders in those States, and that is done through a series of 
committees that support the Kennedy Center that provide their 
own resources, but, more importantly, that provide access to us 
into their communities so that we can explain the work we are 
doing.
    Ms. Norton. Well, what percentage of your funds comes from 
fundraising activities of one kind or the other of the Board?
    Mr. Kaiser. I would say the Board gives us a little over 10 
percent of our annual private fundraising, and that comes from 
their direct contributions. Then, in addition, many of our 
Board members are extremely helpful to us in providing access 
to other donors who help support the Kennedy Center.
    Ms. Norton. Would you classify the composition of your 
Board?
    Mr. Kaiser. Certainly, ma'am.
    There are 59 total members. Of those members, 36 are 
appointed by the President of the United States for 6-year 
terms; 14 are Members of Congress, who are appointed by the 
leaders of each House.
    Ms. Norton. I guess they do not contribute much.
    Mr. Kaiser. We have three members of the Cabinet on our 
Board, and then we have six ex officio members of our Board.
    Ms. Norton. So what percentage of your Board then is from 
the private sector?
    Mr. Kaiser. It is 36 out of the 59. So, roughly 65-66 
percent. My math is not so good at this time.
    Ms. Norton. How does that compare, if you know, to the 
Board at the Metropolitan Museum of Art or MoMA?
    Mr. Kaiser. It is different. In other institutions 
throughout the United States, all of the board is appointed by 
the board, itself. That is, the board will have a nominating 
committee. That is true of the Metropolitan Museum or of the 
Metropolitan Opera or of any arts organization in the U.S. They 
have a nominating committee of its board, and they nominate 
members for the board to approve. So the board is self-
perpetuating. The members are not appointed by any government 
agency.
    Ms. Norton. Are all of your members appointed by the 
President?
    Mr. Kaiser. Thirty-six are appointed by the President, and 
the remaining 23 are ex officio members. We have no Board 
members who are appointed by the Board itself. That makes it 
unusual.
    Ms. Norton. I am not asking for names, but are people who 
serve an important post in the government, such as the Congress 
of the United States, frequent participants in your meetings 
and committee meetings?
    Mr. Kaiser. I think it varies dramatically by member.
    Ms. Norton. They what?
    Mr. Kaiser. It varies dramatically by member. Some members 
are extremely involved and come very frequently, and others do 
not, but almost all send representatives, staff members to 
almost all of our committee and Board meetings.
    Ms. Norton. Well, wouldn't you say that the majority would 
have to send staff?
    Mr. Kaiser. Yes, I would say the majority would have to 
send staff to our meetings.
    Ms. Norton. Are there or have there been naming 
opportunities associated with your fundraising?
    Mr. Kaiser. We are prohibited to name any physical spaces 
at the Kennedy Center because we are a Presidential memorial. 
We have been able to name particular programs.
    Ms. Norton. Such as? Give me an example of a named program.
    Mr. Kaiser. We would have the Fortas Series, which is our 
chamber music series, which was named for Justice Fortas, who 
gave the first endowment, that has been supplemented by his 
widow, to create our chamber music series.
    So we can name a series of performances, but we cannot name 
a physical space. The only physical space that is named at our 
Kennedy Center is our Eisenhower Theater, which was named after 
President Eisenhower because the original authorization of the 
Kennedy Center happened in 1958 under his administration.
    Ms. Norton. I worked with the Kennedy Center when they had 
this grand plan, this grand and wonderful idea--I do not know 
if it came from you or from your predecessor--for a plaza and 
additional buildings, and most of this, of course, was to be 
privately funded.
    Could you tell the subcommittee whatever happened to these 
wonderful plans and whether or not, for example, there has been 
any work to connect the Kennedy Center to the rest of 
civilization so you could walk there?
    Mr. Kaiser. It is a painful subject, ma'am.
    Shortly after I arrived, we began work on this project. 
Actually the initial work was done before I arrived at the 
Kennedy Center by the Department of Transportation, and we had 
planned to build the connection to essentially extend E Street 
from downtown all the way to the Kennedy Center, and to build 
two new buildings on this plaza that would have been created. 
It was a true public-private partnership where the government 
was going to pay--the Federal Government was going to pay to 
create the plaza and move the roads, and the Kennedy Center was 
going to raise private funds to build the two buildings on this 
plaza.
    We were able to raise very quickly $150 million of what we 
estimated to be a $300 million cost for the private buildings, 
but because of changes in the Highway Trust Fund legislation, 
we were not appropriated any Federal funds for this project. So 
that project is in abeyance.
    Ms. Norton. Just to get the roads that would connect the 
Center so that people who walked through the Mall could get 
there, do you have any idea what that amount would be?
    Mr. Kaiser. It was going to be roughly $600 million.
    Ms. Norton. I am wondering whether you think being a 
Presidential standing memorial has been a benefit or a 
hindrance to you in fundraising.
    Mr. Kaiser. It is so wrapped up in our identity that it is 
a hard question to answer. We think of ourselves first and 
foremost as a Presidential memorial. We believe that President 
Kennedy was so associated with the arts that it is an advantage 
to us to be creating art in his memory. We have never--we 
believe----
    Ms. Norton. If you were in New York or, for that matter, 
here, and you had your private institution that was already 
built, do you think it would be easier or more difficult?
    Mr. Kaiser. I think it would be more difficult. I think we 
have had an advantage in being a Presidential memorial.
    Ms. Norton. So, when people know you are a Federal 
institution representing a memorial to an assassinated 
President of the United States, does that add some cache when 
you come and ask for money as opposed to----
    Mr. Kaiser. I think the answer is "yes," but I think, if 
our programming were not substantial, that would not be the 
case. I think far more people relate to specific programs we 
do, and if we had been named the "Kennedy Center" but were not 
living up to that name, I am not sure we would have an easy 
time raising money.
    Ms. Norton. It has been a pleasant experience to go to the 
Kennedy Center since 9/11, and I don't feel like I am going 
into a garrison. Would you explain how you have handled the 
security challenges presented to you and how you have been able 
to keep the Kennedy Center an open institution to the public?
    Mr. Kaiser. Yes. It has been a big challenge, obviously, 
and there is a difference between security perception and 
security reality, and we have been focusing on the security 
reality, which is how do we keep people maximally safe.
    There have been two major projects. One has been to move 
much of the traffic further away from the Kennedy Center 
because it is our belief, and that of all of the experts we 
hire, that it is the cars and traffic that are much more of a 
risk to the Kennedy Center than any human being is.
    Ms. Norton. Now, that was possible because the Federal 
Government funded that, and they funded that because of 
security. You can get infrastructure funds when it comes to 
security.
    Mr. Kaiser. That is correct.
    Then there is substantial additional security throughout 
the building in ways I would rather not enumerate publicly----
    Ms. Norton. Yes, please.
    Mr. Kaiser. --to protect the people who come into a 
building. What we did not decide to do was to have metal 
detectors, et cetera, and for a couple of reasons.
    Number one, as I stated, we do not believe an individual's 
coming in is the main source of danger, but also, because so 
much of our traffic happens within a 1-1/2-hour period, we also 
are not in the situation where we have a steady flow of people 
coming in or of traffic coming in. We have a very concentrated 
flow of people.
    Ms. Norton. So people can enter the building without going 
through a detector?
    Mr. Kaiser. That is correct.
    Ms. Norton. It is very important to note, and I am on the 
Homeland Security Committee as well, and we are still learning 
in this country, from being an entirely open society, to be an 
open society in a period of global terrorism.
    One thing that is quintessential to good management is 
determining the risks and consequences before shutting a place 
down and driving people away who are left really wondering what 
kind of place this has become, particularly when you consider 
this is a Presidential memorial.
    Mr. Kaiser. We have, Madam Chairman, added about $120,000 a 
year of expense for new security systems to make sure that we 
are as secure as possible.
    Ms. Norton. Could you briefly update us on the fire safety 
program?
    Mr. Kaiser. Surely.
    We have embarked, as I said, on a 10-year program to 
renovate the Center. So far we have installed new sprinkler 
systems in our concert hall, our opera house, our terrace 
theater, our family theater, our theater lab, our terrace 
gallery, our motor lobbies, our garages, our restaurants, our 
kitchen, our office areas, our mechanical and electrical rooms, 
and our elevator machine rooms.
    We implemented corrective work at fire separations. We have 
installed standpipe systems. We have refireproofed steel 
structures where needed, and we installed fire-rated enclosures 
and exit signs where needed. In addition, we added a fire alarm 
system and a public address system.
    What we are still yet to do and will complete within the 
next 24 months is the finishing of the renovation of our 
Eisenhower Theater and also installing sprinklers in our roof, 
terrace level. This will be completed, as I say, within the 
next 24 months, and then we will have completely reinstalled a 
new fire system throughout the entire Kennedy Center.
    Ms. Norton. Some of us are very enamored with your 
Shakespeare idea. Would you talk about that idea, how you have 
spread it and how you perceived it?
    Mr. Kaiser. Surely, ma'am.
    I was very interested--we are interested at the Kennedy 
Center in being a good citizen within our community. I am 
particularly interested in the fate of the smaller arts 
institutions in Washington that may not get as much visibility 
as I think they deserve. So we conceived of a project that 
would involve arts organizations throughout the District and 
even some outside of the District, and the notion was that 
Shakespeare was a perfect vehicle because Shakespeare has such 
a huge influence on so many art forms. So we gathered a group 
of approximately 60 arts organizations throughout this area, 
each of which created a project that involved Shakespeare in 
some way, shape or form.
    The Building Museum, for example, created a Globe Theater. 
Many of the theater companies did productions of Shakespeare. 
The National Symphony Orchestra did music inspired by 
Shakespeare. We have jazz performances inspired by Shakespeare, 
et cetera.
    Over the last 6 months, the entire D.C. area arts community 
has worked together to create this project. It has received a 
great deal of visibility, just one measure of which is the 
opening performance, which was a reading of a Shakespeare play 
Twelfth Night, that we had in our concert hall. Seventy-two 
hundred people showed up for our staged reading of Shakespeare. 
There were 2,400 seats. So that is one measure of the 
popularity of this festival.
    Ms. Norton. Do you perceive that this has increased the 
popularity and attendance of the Center or of the understanding 
and the appreciation for Shakespeare? Is there any indication 
of that?
    Mr. Kaiser. Well, we certainly have done a great deal of 
educational work to explain Shakespeare. We have created two 
different Web sites. We have created educational modules to 
help explain Shakespeare to more students. We have felt a great 
deal of activity at the Center for every Shakespeare-related 
program.
    I think almost as important is in our discussions with the 
smaller arts organizations around town, we hear from them that 
they are seeing a great increase in their attendance because of 
their participation in this project.
    Ms. Norton. Now, only one play? Did you say it was Twelfth 
Night that you did?
    Mr. Kaiser. That was just the first. That was the opening 
night. There have been many plays throughout the whole District 
that were Shakespearean.
    Ms. Norton. Did you decide to do only one there because of 
the other Shakespeare theaters in this----
    Mr. Kaiser. No. We, actually, also did a Royal Shakespeare 
performance of Coriolanus, and we did a French-Canadian 
production of The Tempest. So we did several, but we 
coordinated amongst all, and Michael Kahn, the artistic 
director of the Shakespeare Theater, helped to coordinate and 
to curate this so that there was no duplication. So there was 
only one Hamlet, traditional Hamlet. There was only one 
traditional Coriolanus, et cetera.
    Ms. Norton. Thank you, Mr. Kaiser.
    I am going to ask Mr. Graves, the Ranking Member, if he has 
an opening statement.
    Mr. Graves. I do have an opening statement, but if you 
would rather, I will just submit it.
    Ms. Norton. Anything you would like to say for the record 
is welcome at this time.
    Mr. Graves. Well, I apologize for being late. We, 
obviously, had votes that ran a little bit long, and I do 
appreciate you all coming in. I want to thank the witnesses for 
being here. I know, you know, again, that we are working on a 
finite schedule, and I think that the witnesses have to leave.
    Ms. Norton. Yes.
    Mr. Graves. I think I can pretty much submit my statement 
for the record.
    What I am interested in just as much as anything else--and 
I am sure that the Chairwoman has covered it--I definitely am 
interested in the safety of the facility--of the facility 
itself and of the individuals who are in charge of overseeing 
the facility.
    I think that the Smithsonian and the Kennedy Center are 
wonderful treasures that we have, and it is probably--you know, 
every time that we get folks who come into D.C., that is the 
first thing they want to see, and we have to make sure that it 
maintains the status as, you know, one of the finest things to 
visit when you are in Washington, DC.
    So I will submit my statement for the record, recognizing 
that we have got some time problems, but I do appreciate the 
Chairwoman for having this hearing, and I am very interested, 
and I will follow up.
    Ms. Norton. Mr. Kaiser, before us is the reauthorization of 
the Kennedy Center in this Congress.
    Could I finally ask you about bequests? Do you actively 
seek bequests and get bequests for the Kennedy Center?
    Mr. Kaiser. Yes, we do. We actively seek bequests. In fact, 
we have something called the Roger L. Stevens Society--that was 
named for our founder Roger Stevens--which is a group of people 
who leave us money in their wills, and we have to encourage 
people to join this group, and then we meet with them annually, 
and we are very fortunate to receive bequests.
    Ms. Norton. Well, Dr. Samper, you are here because of a 
bequest, as it were, or at least because of a contribution.
    Does the Smithsonian Institution have an active, ongoing 
program for bequests?
    Mr. Samper. Yes, Madam Chair, we do, and we are fortunate 
to have received bequests since our origin in 1846 and every 
year, and we do have an active program.
    Ms. Norton. Could I ask you how often the Board of Regents 
meets?
    Mr. Samper. Yes, Madam Chair.
    The Board of Regents holds four meetings every year and any 
additional meetings as necessary. This year, clearly, given 
recent events, they have held an additional two meetings. In 
addition to that, the Board of Regents has five committees that 
meet regularly, each of them three or four times a year, and 
they have an executive committee that also meets four times a 
year.
    Ms. Norton. Now, the executive committee had or has 
extraordinary power?
    Mr. Samper. The executive committee is allowed to make 
certain decisions in between the sessions of the Board of 
Regents as established by the bylaws.
    Ms. Norton. What power does it have that boards usually 
have? I want to ask the same question of Mr. Kaiser.
    Mr. Samper. The executive committee can, in between the 
board meetings, for example, and given recent events that have 
happened, Madam Chair----
    Ms. Norton. Does everything that the executive committee 
does come as a ratification to the Board?
    Mr. Samper. All of the minutes and decisions do go to the 
Board, and many of them have to be ratified, but the main 
role----
    Ms. Norton. Do the major decisions come to the Board?
    Mr. Samper. They come to the Board, and they are recorded 
there, yes, ma'am.
    Ms. Norton. Do you have an executive committee, Mr. Kaiser?
    Mr. Kaiser. Yes, we do.
    Ms. Norton. How does the executive committee vis-a-vis the 
Board----
    Mr. Kaiser. The executive committee--since the Board is so 
large, it is a smaller group of Board members who help advise 
on serious issues. Any resolution that would get passed by the 
executive committee would also go to the Board, but they are a 
group where you can have a better conversation amongst 12 
people than you can amongst 59 people.
    Ms. Norton. But everything goes to the Board if it is a 
thing of any moment?
    Mr. Kaiser. The budget. Every major project. Every budget, 
every capital item, et cetera, goes to the Board as well.
    Ms. Norton. Who sets the wage or the salary for--shall we 
call him the CEO since you have different titles among you?
    Mr. Kaiser. We have a personnel committee of the Board that 
worked with the Chairman and an outside counsel who did a study 
of recommended salary levels who then created the contract for 
the CEO.
    Ms. Norton. And increases come to the full Board?
    Mr. Kaiser. This contract was written at the time that I 
was engaged, and then it was revised one additional time for a 
period of years. It was not a salary level that was approved by 
the full Board. It was approved by the personnel committee and 
the Chairman.
    Ms. Norton. The initial contract was approved by whom?
    Mr. Kaiser. The initial contract--the nonfinancial terms 
are approved by the whole Board, but the financial terms are 
done by a smaller group.
    Ms. Norton. And that smaller group does not report----
    Mr. Kaiser. It is part of the Board. It is a group of the 
Board, one of our committees called the personnel committee, 
that reports to the Chairman.
    Ms. Norton. The decision regarding the salaries of the top 
officials, is that reported to the Board? Is that ratified by 
the Board?
    Mr. Kaiser. The salaries for the top officials are set by 
me. They are part of our budget.
    Ms. Norton. What about your salary? Is that reported to the 
Board after being set by----
    Mr. Kaiser. My salary is set by contract, a multiple-year 
contract.
    Ms. Norton. I mean, does that include the increases and 
the----
    Mr. Kaiser. Yes, that includes everything in there, and it 
is ratified by the Board. The salaries of other employees are 
part of our annual budget, and that budget is approved first by 
the finance committee and then by the executive committee and 
then by the full Board.
    Ms. Norton. Well, suppose the Shakespeare idea was such a 
colossal idea that it--I do not know--sent the Kennedy Center 
into the stratosphere of fundraising and other things. Would a 
bonus come forward outside of your contract?
    Mr. Kaiser. I have a small bonus within my contract, but I 
have no bonus outside of my contract, and I am expected to do 
extraordinary work, so I am not entitled to any other bonus.
    Ms. Norton. Let me ask you the same question, Dr. Samper. 
Who sets--and I am talking about even if there are recent 
changes. I expect you to indicate that to the subcommittee. You 
know, I would expect that you would speak about both before and 
after if, in fact, there have been recent changes.
    Mr. Samper. Madam Chair, as to the current process, the 
Board has a compensation committee that meets and reviews all 
of the compensation of all of the top senior-level executives 
at the Institution, and their recommendations go to the full 
Board for approval. That compensation committee was established 
a few years ago. I think it was 4 years ago. Before that, most 
of the negotiations were done by the executive committee of the 
Board of Regents. So, at this point, all of the top executives 
are reviewed based on the recommendations of management, and it 
is reviewed and goes to the full Board for approval.
    Ms. Norton. Mr. Kaiser, I see you are nervous about the 
time.
    Mr. Kaiser. I am.
    Ms. Norton. Could I ask you just one more question?
    Mr. Kaiser. Yes, of course, anything you want.
    Ms. Norton. I am interested in whether or not there is a 
housing allowance or any allowance other than salary.
    Mr. Kaiser. No, ma'am. I get no compensation apart from my 
salary.
    Ms. Norton. I appreciate that you waited. I know that the 
committee has inconvenienced you, and I will allow you to go 
now.
    Mr. Kaiser. Thank you so much, Madam Chairman.
    Ms. Norton. Would you, Dr. Samper, give us a breakdown of 
your funding sources, the Federal Government, donations, 
grants, bequeaths, and others?
    Mr. Samper. Yes, Madam Chair.
    The budget for fiscal year 2006 would include the Federal 
appropriations and what we would call the "trust funds." for 
fiscal year 2006, the salaries and expenses were $516.6 
million.
    Ms. Norton. I am sorry. I was distracted for a moment. 
Would you----
    Mr. Samper. Salaries and expenses were $516 million. These 
are----
    Ms. Norton. No. I asked you for the breakdown of your 
funding sources.
    Mr. Samper. Federal appropriations. The overall----
    Ms. Norton. I know about that, but what about donations or 
grants?
    Mr. Samper. I am coming to that, Madam Chair.
    Ms. Norton. All right.
    Mr. Samper. What I was saying is that our budget includes 
Federal appropriations and trust funds. For Federal 
appropriations, the total amount for fiscal year 2006 was $615 
million. Of that, $516 million were for salaries, and $98 
million were for facilities capital.
    What in our budget would be called "trust funds" amounted 
to $332 million, and that included $112 million for grants and 
contracts; $161 million of what we would call "restricted 
trusts" that would include the gifts and bequests that have a 
particular objective in mind; and a total of $58 million of 
what we would call "unrestricted trusts," which are general 
donations that are not earmarked for any particular activity 
within the institution.
    So the total on what we would call "trust funds" would be 
$332 million, and the total of Federal funds would be $615 
million for fiscal year 2006.
    Ms. Norton. Does the Smithsonian have an annual goal for 
private fundraising that you would expect to receive from 
private fundraising?
    Mr. Samper. Yes, Madam Chair, we do. For this fiscal year 
our goal is $115 million in private gifts.
    Ms. Norton. One hundred fifteen million dollars?
    Mr. Samper. In gifts. That does not include grants and 
contracts, which are a very important part of our activities 
for the research part of it.
    Ms. Norton. How are those funds raised? I realize you are 
acting and you are new.
    Mr. Samper. Yes.
    Ms. Norton. Typically who raises those funds?
    Mr. Samper. There are a number of people who are involved. 
That includes, of course, the Secretary, the Directors of the 
various museums.
    Ms. Norton. The Directors of the museums separately raise 
their own----
    Mr. Samper. As part of the activities, yes, and it is 
included in our performance plans, and having been a director--
--
    Ms. Norton. Is the private funding divided on a 70 percent 
basis to each of them?
    Mr. Samper. No. It depends on each of the museums. There 
are some museums that have a much larger proportion of the 
private funds or endowments; for example, in the case of the 
Freer/Sackler Galleries, which have a large endowment that was 
set when it was done. So it depends on each of the museums.
    Ms. Norton. Which part of the museum is most dependent on 
Federal funds?
    Mr. Samper. I think what you find is the larger museums----
    Ms. Norton. I mean, obviously, the Smithsonian is most 
dependent on Federal funds.
    Mr. Samper. Yes, all of the large museums and, in 
particular, those museums where you have very large 
collections. So, for example, the National Museum of Natural 
History, the National Museum of American History, the Air and 
Space Museum, those museums have as part of their charge or are 
dealing with the bulk of the collections of the Smithsonian, or 
they are receiving the largest number of the visitors. Those 
tend to receive a large appropriation on the Federal side.
    Ms. Norton. Is it the Director, or whatever the title is, 
of these museums who receives a larger amount, say, at the 
Natural History or Air and Space? Which did you say?
    Mr. Samper. American History. It really depends across the 
19 museums and the research centers, so----
    Ms. Norton. What fundraising responsibilities do their 
Directors have?
    Mr. Samper. It depends on the moment and the projects, but 
the $115 million that I mentioned in overall fundraising as our 
target includes the responsibilities and the allocations that 
we do by each of the museums. The figure I am most familiar 
with, of course, is that of Natural History, having been the 
Director of that museum myself. Our target there was about $8 
million this year, and we have brought in about $20 million so 
far. So it depends on the projects that we are doing in each of 
the museums.
    Ms. Norton. So is fundraising done for the Smithsonian, or 
is fundraising done for each of these----
    Mr. Samper. We do both. I mean, each of the museums 
individually will do fundraising activities.
    Ms. Norton. Is that done collectively as a group? Is there 
a development apparatus that knows how to raise funds for each 
of these different functions?
    Mr. Samper. We have a Central Development Office that 
serves the overall Smithsonian Institution, with a team of 
people, and they have particular duties, including all of the 
research background for potential prospects and the 
coordination of activities across the museums so that we make 
sure that we are all approaching the donors in a consistent 
manner.
    Ms. Norton. That is the Central Development Office?
    Mr. Samper. That is the Central Development Office.
    Ms. Norton. Now, do each of the other facilities have their 
own central development offices as well?
    Mr. Samper. The larger museums would have a small 
development staff in each case. In the case of Natural History, 
we had three or four people in addition to our development 
activities, and I would add that, in terms of the governance, 
all of the large museums also have advisory boards, and those 
boards are actively engaged in the fundraising activities.
    Ms. Norton. I will ask you the same question I asked of Mr. 
Kaiser. Has the funding been flat, and over what period of 
time? Obviously I am just talking about operating funds.
    Mr. Samper. Just the fundraising from private funds over 
the last decade has been increasing to the Smithsonian. You do 
find certain peaks that relate to particular facilities. So, 
say, when we are actively fundraising for the National Museum 
of the American Indian, you would see a peak associated with 
that activity.
    Ms. Norton. What percentage of funds for the Museum of the 
American Indian came from the Federal Government?
    Mr. Samper. Bear with me. Approximately half. I can get you 
the exact figure, Madam Chair. About half of the funding.
    Ms. Norton. Were the tribes solicited for funds?
    Mr. Samper. Yes, they were.
    Ms. Norton. Did they give substantial funds?
    Mr. Samper. They were important contributors to the overall 
project, yes, ma'am.
    Ms. Norton. What about the Portrait Museum? That is a 
wonderful facility.
    Mr. Samper. As to the Portrait Gallery--again, in all of 
these new museums, we are doing renovations----
    Ms. Norton. How is the Portrait Gallery funded?
    Mr. Samper. The Portrait Gallery includes Federal funding.
    Ms. Norton. What percentage is Federal funding, and what 
percentage is private funding?
    Mr. Samper. I do not have that breakdown before me, but I 
will be happy to get that for you.
    Ms. Norton. What about the zoo?
    Mr. Samper. The zoo is primarily Federal in terms of its 
funding, and they do some fundraising activities on the order 
of about $10 million a year.
    Ms. Norton. Do you feel that there has been a systematic 
exploitation of fundraising possibilities by the Smithsonian 
over the past couple of decades?
    Mr. Samper. I think fundraising two decades ago was almost 
nonexistent at the Smithsonian. As I see the record, we have 
been steadily focusing more and more on that. Prior to 1997, 
the level of fundraising that we were doing was quite limited, 
and we have seen a steady increase. I think certainly over the 
last decade, it has been a very important part of our 
activities. We are consistently bringing in about $120 million 
in gifts every year at this point.
    Ms. Norton. You have a very substantial and challenging 
task with so many institutions, but there are others who would 
say you had marvelous opportunities. If you had 19 museums and 
galleries, a zoo, nine research facilities, one might look at 
that in one way as, "Oh, my God." the other way to look at this 
is to look at all of these avenues for raising funds.RPTS 
McKENZIEDCMN MAYER[12:45 p.m.]
    How do you perceive it? How does the Board of Regents 
perceive it?
    Mr. Samper. Well, my view is that that diversity of 
activities is part of the strength of the Smithsonian.
    Ms. Norton. How do research facilities fund it?
    Mr. Samper. Primarily through Federal funding and grants, 
and contracts in particular. So in the case of our 
astrophysical observatory and the activities there they are 
involved with, they get grants from NASA.
    In the case of----
    Ms. Norton. They compete for grants the way universities 
do?
    Mr. Samper. They certainly do. Most of our research 
facilities are very aggressive in terms of grants and 
contracts, and that is most of their outside funding; not so 
much private gifts, but----
    Ms. Norton. Any idea of what their track record is in 
receiving competitive grants from the government?
    Mr. Samper. Overall, very good, Madam Chair. And as I 
mentioned before, across the nine research facilities and some 
of the museums that have important research programs, we bring 
in over $100 million a year in grants and contracts.
    Ms. Norton. And that is apart from this $100 million?
    Mr. Samper. Yes, correct.
    Ms. Norton. What is the composition of the Board of 
Regents?
    Mr. Samper. The Board of Regents, the way it was 
established with the original act of Congress includes 17 
members. There are two ex officio members who are the Chief 
Justice of the United States and the Vice President. There are 
six Members of the Congress, three from the House and three 
from the Senate, that are appointed.
    Ms. Norton. Would you hold a minute?
    I am sorry. Would you begin again?
    Mr. Samper. Yes, Madam Chair. As I was saying, the Board of 
Regents is made up of 17 members. There are two ex officio 
members, the Chief Justice of the United States and the Vice 
President. There are six Members of Congress, three from the 
House and three from the Senate, and there are nine what we 
call "citizen regents," and those citizen regents are nominated 
by the----
    Ms. Norton. So, overall, the percentage of public officials 
to citizen regents is----
    Mr. Samper. There is actually a majority of citizen 
regents.
    Ms. Norton. Because you are excluding the ex officio 
members?
    Mr. Samper. Yes. We have nine.
    Ms. Norton. The Members of Congress are ex officio members 
or sitting members of the Board?
    Mr. Samper. They are members of the Board and they are 
appointed--in the case of the House they are appointed by the 
Speaker. They serve as members of the regents with fiduciary 
responsibilities.
    Ms. Norton. So there are six of each?
    Mr. Samper. There are three of the House and three of the 
Senate. So you have nine citizens.
    Ms. Norton. Total is six.
    Mr. Samper. So you have nine citizens, total six Members of 
Congress, and the other two are the Chief Justice and the Vice 
President. So you actually have a majority of citizens and the 
three branches.
    Ms. Norton. Given their duties in Congress, do most Members 
of Congress send proxies of one kind or the other, namely 
staff, to meetings?
    Mr. Samper. There are some cases, but in my experience 
Madam Chair----
    Ms. Norton. Well, your experience meaning as the acting----
    Mr. Samper. Well, certainly as acting, but actually based 
on the records that I reviewed, most of the Members of Congress 
have been very active and certainly show up. In the two 
meetings that have taken place since I came----
    Ms. Norton. I am trying to get a snapshot not of what has 
happened since the roof fell----
    Mr. Samper. Correct.
    Ms. Norton. --where I would expect people to show up. I am 
trying to get a candid and honest view of whether people who 
hold high office, like the Vice President--I mean, I can go and 
get attendance. What I am asking for you to tell me is whether 
people whose day job is here in the House regularly over a 
period of, let's say, 10 years have regularly been able to 
attend meetings.
    Mr. Samper. Our experience is they are actively engaged. 
Most of the congressional members----
    Ms. Norton. I didn't ask you if they were actively engaged. 
I don't even know what that means.
    I am trying to get very specific information, and I can get 
that information simply by asking you submit it to me, if you 
prefer.
    Mr. Samper. I would be happy to do that, Madam Chair.
    Ms. Norton. I am not trying to cast aspersions on anybody. 
This is an institution which got into some trouble. I don't 
think anybody was at fault. And I can tell you one thing, that 
just as I could not come up here when there was a vote on the 
floor, I don't care how many meetings you were having over 
there, I know what my major responsibility is. And if there is 
a hearing here and there is a meeting there, I also know what 
my regular responsibility is, and it doesn't take a markup to 
know that.
    But if the institution hasn't been looked at for decades, 
if, for example, no one has wondered about the increasing 
responsibilities of the Congress and the much greater scrutiny 
of public institutions today--I must say, not by us--when it 
comes to the Smithsonian and the Kennedy Center but certainly 
brought by the media and now the blogs and whoever will take a 
picture with a cell phone. If that isn't done, it is no 
criticism to anyone who has participated to say, let's take--
let's look with fresh eyes at it.
    What you are telling me is that despite the increasing 
responsibilities of Members of Congress with roles on 
committees, with responsibilities here, with scrutiny on us 
here, that it hasn't mattered.
    I want to understand that, too.
    Mr. Samper. Madam Chair, based on my review of minutes and 
records of attendance, what I can tell is that most of the 
regents have attended the meetings, including Members of 
Congress, including the Chief Justice.
    Ms. Norton. When do you have the meetings of the Board?
    Mr. Samper. On Mondays.
    Ms. Norton. What time of the day?
    Mr. Samper. In the morning. The Board has met as a 
committee in the morning. They are always done Monday mornings 
precisely to facilitate the scheduling relating to Congress; 
and as I mentioned before, meetings of the year, there are----
    Ms. Norton. Would you submit to this committee the record 
of attendance for members of the Board over a period of the 
last 10 years?
    Mr. Samper. We will put that information together, Madam 
Chair.
    Ms. Norton. Who is in charge? Is there a chairman of the 
Board? Who presides at these meetings?
    Mr. Samper. There are two figures. There is a chancellor of 
the Board.
    Ms. Norton. What is that?
    Mr. Samper. The chancellor of the Board is appointed by the 
Board itself. By tradition, the chairman of the Board has been 
the Chief Justice of the United States. In addition to that, 
there is a chairman of the executive committee of the Board 
that, by tradition, has been one of the citizen regents.
    Ms. Norton. Now, the chancellor, does the chancellor have 
to be a citizen regent? Or can he be a public official?
    Mr. Samper. It can be selected. It is appointed by the 
Board, so it doesn't have to be. But the chancellor, as I 
mentioned, by tradition has been the Chief Justice of the 
United States.
    Ms. Norton. I thought you said the chancellor is the Chief 
Justice.
    Mr. Samper. But appointed by the Board. It is not 
automatic. The bylaws establish----
    Ms. Norton. Has the chancellor over the past couple of 
decades been, in fact, the Chief Justice?
    Mr. Samper. Yes, ma'am.
    Ms. Norton. Does he preside at meetings?
    Mr. Samper. Yes, he does.
    Ms. Norton. If he is unable to attend a meeting, who 
presides?
    Mr. Samper. The chairman of the executive committee of the 
regents, which is a citizen regent.
    Ms. Norton. Some changes were made after the fact when the 
matter involving Secretary Small arose. On what basis were they 
made--some things that had not been approved, some expenditures 
that had not been approved?
    Mr. Samper. If you are referring--I don't know which you 
have in mind, Madam Chair. But from the records--as you know, I 
have only been Acting Secretary for 10 weeks. So I am going on 
the records of what I read. There were some decisions that were 
passed to clarify----
    Ms. Norton. There were what?
    Mr. Samper. There were decisions passed by the Regents to 
clarify in the case of something like the housing allowance of 
Secretary Small and what it covered. Specifically, it was to 
clarify what was to be included under that term of the----
    Ms. Norton. Was something ratified?
    Mr. Samper. They clarified what was included and what was 
the intent and also some of the issues about the types of 
expenses and travel that were covered by the original 
contractors.
    Ms. Norton. Were any of those expenses disallowed?
    Mr. Samper. Not that I am aware of, Madam Chair.
    Ms. Norton. So, in effect, they were ratified? Whatever was 
spent was ratified?
    Mr. Samper. There was a review that was done, and there was 
an independent review of the expenses, and that went to the 
audit and review committee of the Regents.
    Ms. Norton. There was what? I am sorry.
    Mr. Samper. There was a review that was done of all of the 
expenses of Secretary Small. And that original review went to 
the audit and review committee of the Regents.
    As I mentioned before, Madam Chair, the Regents have also 
appointed an independent review committee that is currently 
reviewing all of the issues relating to the expenses. They will 
be receiving their report about that independent review; that 
will come to the Regents, and the Regents may make additional 
decisions once they receive----
    Ms. Norton. So all of Mr. Small's expenses were 
subsequently deemed appropriate?
    Mr. Samper. Well, at this time, there is an independent 
review that includes----
    Ms. Norton. If there is an independent review, why did the 
Board of Regents feel it necessary to ratify the expenses of 
Mr. Small, some of which I understand occurred after he 
resigned?
    Mr. Samper. Not that I am aware of, Madam Chair.
    Ms. Norton. What are you not aware of?
    Mr. Samper. That there were any expenses of Mr. Small 
approved after he resigned.
    Ms. Norton. Well, but each and every expense of Mr. Small 
has been ratified by the Board of Regents.
    Mr. Samper. The Regents have reviewed the expenses for Mr. 
Small and did an initial review of those expenses. They have 
appointed an independent review.
    Ms. Norton. Excuse me. It would be one thing to say they 
were reviewing, and I can understand that.
    I am asking, have they not ratified, in effect, signed off 
on some of those, if not all of those, expenses?
    Mr. Samper. I don't think, Madam Chair, they have approved 
or reviewed individual expenses. What they did was clarify what 
the intention was relating to travel and the housing allowance 
of Secretary Small as a general statement.
    Ms. Norton. And clarifying what their intention was, were 
they saying that these expenses met the intent?
    Mr. Samper. In most cases, yes, ma'am.
    Ms. Norton. So I still cannot understand, you are saying 
anything except that they found the expenses that he incurred 
were appropriate or at least were intended by the Regents.
    Mr. Samper. Yes, ma'am.
    Ms. Norton. What is the status of the Arts and Industries 
Building, please?
    Mr. Samper. Madam Chair, the Arts and Industries Building, 
as you know, is a very important part of the institution. And 
the current status is that following an analysis of the 
structural stability of the roof and some of the facilities, 
there was a decision to actually close the building to the 
public and then vacate all of the offices. So the building at 
this point has no collections and is off limits to the public.
    In reviewing our options going forward in terms of the 
investment, we have estimated what it would actually cost to 
stabilize the building, fix the systems, including the roof and 
electrical systems and other areas. And at this time there is a 
decision by the Regents to pursue potential public-private 
partnerships in terms of bringing--doing the investments that 
are required to get that building back up and running and open 
to the public.
    We estimate the basic cost just in terms of fixing the 
basic elements of electrical systems, HVAC, and roof would be 
in excess of $60 million, and the overall project would 
probably be on the order of a couple hundred million dollars 
once they have included the other facilities. So, at this 
point, we are considering and consulting with relevant 
committees here in Congress to be able to move forward and 
issue a request for qualifications to explore potential public-
private partnerships that would allow us to reopen the building 
in ways that would be entirely compatible and consistent with 
the missions of the Smithsonian.
    Ms. Norton. Dr. Samper, I understand the importance of 
fund-raising. I myself do not belong to the school of thought 
in the Congress that finds private marketing to be 
inappropriate for a public institution. I was at odds with some 
of my--some of my colleagues on another committee, who 
complained when the Post Office, during the Olympics, marketed 
itself through the Olympics and did exactly what private 
corporations did.
    My judgment, I didn't see how we could tell the Post 
Office, hey, you are on your own now. They get nothing from us. 
And, by the way, we have oversight of you and we are going to 
complain if you raise postage, and we know you have to compete 
with FedEx and the rest of them. You know, FedEx can go and use 
the Olympics for whatever. And I am sure they do all kinds of 
studies; otherwise, they wouldn't invest in it. They can do 
that, but you can't do that. I don't belong to that school.
    I belong to the school that says public institutions should 
market and they should do so appropriately. And certainly the 
Post Office had better market or it is really going to go 
under, or we are not going to--or else the American people are 
going to have to buy more and more stamps, which will mean they 
go under because technology will take them over, or FedEx or 
UPS or one of the other----
    You, the Smithsonian, recently renamed the National Museum 
of American History. I think it is the Behring Center. Am I 
pronouncing that right? The name is now displayed prominently 
on the exterior of the building even though that is not the 
actual name of the museum, and it has not been renamed by the 
Congress or anyone else.
    Can you explain the process by which the Smithsonian 
reached agreement in return for the gift, a very handsome gift? 
I applaud the institution and particularly the decision to 
display the name on the interior of the building--exterior of 
the building, as it is now.
    Mr. Samper. Madam Chair----
    Ms. Norton. Did the donor request that?
    Mr. Samper. Madam Chair, the Smithsonian does pursue 
opportunities to secure this fund-raising; and it doesn't have, 
as a matter of fact, a policy of naming galleries or particular 
facilities or buildings after donors in recognition for----
    Ms. Norton. Is any other building named after the donor?
    Mr. Samper. Not the entire facility. But certainly many of 
the exhibitions or galleries within the buildings, they are--
oh, sorry, Madam Chair. There is one other case, yes. Sorry, 
Madam Chair. I stand corrected. Yes, if you look at, for 
example, the Freer Sackler Museum.
    Ms. Norton. Which one?
    Mr. Samper. The Freer Sackler Museum or the Hirshhorn.
    Ms. Norton. They weren't named anything else to begin with, 
were they?
    Mr. Samper. They were established with the bequests and the 
gifts from these donors. So there have been cases where we have 
done this.
    Ms. Norton. The National Museum of American History was 
established by the United States of America.
    Mr. Samper. And the museum itself--the important 
distinction here, Madam Chair, is, we have not changed the name 
of the museum itself. We are looking at the facility--the 
National Museum of American History has several facilities, 
including storage facilities, in other locations, and that is--
--
    Ms. Norton. So you are saying you haven't changed the name 
of the storage facility? I don't understand why you would even 
throw that into the conversation.
    Mr. Samper. What I am stating is that we are not renaming 
the museum. What we are doing is renaming the facility, the 
actual physical building where the facility is contained.
    Ms. Norton. I am lost. I am talking about the structure 
that we all see.
    Mr. Samper. Yes.
    Ms. Norton. You are now confusing me because that is all I 
am talking about. And as I understand it, the name Behring 
Center is there now, and I don't know whether to send people to 
the Behring Center--in which case they will say, where in the 
world is that--or to the National Museum of American History.
    Mr. Samper. Yes, Madam Chair. That is the National Museum 
of Natural History. The Smithsonian Institution did recognize 
the very generous contribution from Mr. Ken Behring by 
recognizing it and using it as a subtitle there, and it is 
called the Behring Center.
    Ms. Norton. Well, I am going to reserve judgment until I go 
down there and see it, since that is where I do my race walk. I 
will just take a look. I do not object. If the plaque is 
tasteful and doesn't overwhelm the name of the building, then I 
don't see anything wrong with that.
    Mr. Samper. Thank you, Madam Chair.
    Ms. Norton. People don't give that much money for nothing.
    Does the Smithsonian find that most people want something 
named after them when they give substantial amounts these days?
    Mr. Samper. We do find many individuals, they do want the 
recognition of the naming; and that is something that we have 
done in a number of cases.
    Ms. Norton. Has that been approved by the Board?
    Mr. Samper. Yes. Any naming of any space has to be approved 
by the Board of Regents.
    Ms. Norton. How many renaming agreements have been made by 
the Board in the last 10 years?
    Mr. Samper. I don't have that information with me, Madam 
Chair, and if you were to include galleries and others, 
multiple namings.
    Ms. Norton. I would like you to provide the names. I am not 
objecting. I do so--I preface my remarks by indicating that I 
understand marketing and I understand what you have to do. Much 
has to do with taste.
    Someone withdrew, as I recall.
    Mr. Samper. There have been some cases where particular 
donations that were given to us were withdrawn, or in some 
cases----
    Ms. Norton. Wasn't there one--and here I am taxing my own 
memory--where the name of either a building or an exhibition 
was withdrawn when the donor's name was not prominently 
displayed or there was no agreement----
    Mr. Samper. I believe the case that you are referring to 
was the gift that was done initially by Mrs. Catherine Reynolds 
for the National Museum of American History.
    Ms. Norton. Would you recount that for us?
    Mr. Samper. The case was actually--there the question was 
not so much to do with the naming, but the process by which the 
content of the exhibition was going to be resolved and the 
selection some of the people----
    Ms. Norton. She wanted to have her hands in there?
    Mr. Samper. We are extremely careful whenever we accept a 
gift to maintain independence in the editorial--in the content, 
and we don't let the donor intervene in terms of the selection 
of the content of the exhibition.
    In that case, after internal discussions within the 
Smithsonian and others, we felt it was not appropriate to make 
any concessions in that regard and we felt it was better to 
return that gift.
    Ms. Norton. I understand that some officers or employees 
may serve on outside boards. I have no objection to that 
either, as long as they solicit funds while they are at it--a 
joke, but this is how people raise money. They are in touch 
with people who raise money.
    Which brings me to my next question: What have been the 
fund-raising activities of your board, the Board of Regents?
    Mr. Samper. The Board of Regents, Madam Chair, is not 
primarily established as a fund-raising board, although we are 
fortunate that some of the members themselves----
    Ms. Norton. Are the nine citizen members chosen with that--
who chooses the nine citizen members?
    Mr. Samper. They are nominated by the Regents themselves 
and they are confirmed by Congress.
    Mr. Samper. In selecting nominees, to what extent do the 
Regents take into account the ability of citizen nominees, 
particularly given the proportion of the public nominees, to 
raise funds?
    Mr. Samper. The Regents are appointed to trying to secure 
the right mix of skills. The ability to contribute or assist in 
fund-raising is----
    Ms. Norton. What are the skills? I mean, they don't run the 
institution.
    Mr. Samper. No. But we want to make sure that we have the 
right kind of expertise to provide the oversight. So, for 
example, we have always tried to have one or two members that 
have academic credentials coming from running universities or 
research organizations. We have always tried to have a member, 
someone that has experience in running museums. We have some 
cases where people that have finance investment or audit 
experience. So it is a combination of the skills that we are 
looking at in all of the Regents' nominations.
    Ms. Norton. You are aware that that mix, your mix of 
regents, is unusual for institutions. If you had to raise your 
own funds, that mix wouldn't be very helpful to you.
    Mr. Samper. Correct, Madam Chair. And as I mentioned, the 
main duty of the Regents is oversight responsibilities. The way 
we secure additional, contributions for fund-raising 
particularly, is that we have another board that we call the 
Smithsonian National Board, and this is a board that is 
appointed by the Regents themselves. It has about an additional 
50 members, and the main function of that board is to assist 
with fund-raising; that is the expectation and contribution 
when people are appointed.
    Ms. Norton. So unlike most major museums and art galleries, 
it is a secondary board that has to raise the funds, while the 
people who have none of that responsibility, or a little bit, 
simply are the overseers of what they do?
    I mean, if you want $100 million, perhaps Mr. Behring would 
have liked to have been on the Board itself.
    Mr. Samper. I am sure there are some cases, and what we 
have done with cases like Mr. Behring----
    Ms. Norton. I am not sure whether he would have been 
otherwise qualified, and I am not implying his only 
qualification was the huge donation, but I am very grateful and 
that should have been enough.
    Mr. Samper. Fair enough.
    He was appointed to the Smithsonian National Board, which 
is exactly where the major contributions are done. We have 
found it is helpful to differentiate the direct oversight from 
the fund-raising activities, and I think historically when you 
look back at the last 20 years or 30 years it has served the 
institution well.
    Ms. Norton. Say that again. That they have an issue? I am 
sure they have.
    Mr. Samper. Yes. They certainly have.
    Ms. Norton. And I applaud that they have, and I think you 
are able to have a secondary board whose job it is to raise 
funds only because it is the Smithsonian. I don't think that 
would work anyplace else.
    The real question, I suppose, for the Smithsonian is 
whether you can ever expect it to raise the amount you are 
going to have to raise, particularly now that we are on PAYGO. 
This is an institution to which I pay some considerable 
attention. It would be very low on the totem pole. Most 
Members, not because they don't appreciate the Smithsonian, but 
because they appreciate health care more, you know, because 
they appreciate their obligations more.
    So there is incredible pressure on all of our institutions 
to raise more money, and you brought in a first-class fund-
raiser. Had it gotten the kind of oversight that boards or 
members give money, know-how to watch money, likely he could 
have been reined in, and he might still be there, given his 
prowess in raising money rather than virtually disgraced, 
although everything he did was apparently either explicitly or 
thereafter ratified by the Board of Regents who got off scot-
free.
    Perhaps unlike most members of the public, when I hear that 
there is a board, there is a certain kind of fiduciary 
responsibility that goes along with it. I myself served on the 
boards of three Fortune 500 companies. I know well what those 
responsibilities are.
    I would have thought, if anything--and I say this for the 
record; it needs to be said:
    I don't think Mr. Small, by any means, deserved all of the 
criticism that came by, specifically, since you have testified. 
And the press reports are clear that the Board went back and 
ratified everything he was criticized for.
    That is an outrage. If, in fact, that had happened to 
another kind of institution, people would have taken to the 
floor to--saying, then they ratified everything he did. That is 
why I don't think Congress can--there are some of us who don't 
believe that Congress--believe the Congress should abide by the 
same rules that they expect of everybody else. We have even 
enacted some legislation to that effect.
    But it is clear that although there have been some Senate 
hearings, that essentially there is not a public airing of what 
happened so as to say to the Regents that that was 
inappropriate.
    Now, as you know, I haven't called this hearing in order 
discover more of what happened. I think the press did the 
oversight for this Congress, virtually all of it, over a 
decade, if the truth be told, and I think that oversight has 
been done. And any further oversight on that issue should await 
the report that is forthcoming.
    I simply, during this appropriation period, would like to 
see us get started on looking for alternatives, and that is my 
next question.
    I find the amount raised $115 million; is that it?
    Mr. Samper. That is only from gifts and contributions from 
individuals, and you would have to add grants and contracts on 
top of that, which is another $100 million, and the other trust 
funds that we have from endowments and requests. As I 
mentioned----
    Ms. Norton. Trust funds have to be put aside. The 
contracts, those are important because they are annual. I take 
it they take place annually?
    Mr. Samper. Yes.
    Ms. Norton. And then there is $115 million from 
contributions.
    Do you believe that--you heard Mr. Kaiser, who has one 
building, talk about how he has marketed the--or are there 
similar things that the Smithsonian has done to market or draw 
in others so that they will see the institution as something 
they wanted to be a part of and to give to?
    Mr. Samper. We certainly have made efforts in that 
direction, and we have been fortunate to secure support, like 
Mr. Kaiser mentioned--for example, corporations and others that 
may sponsor particular exhibitions or events.
    Ms. Norton. Members of the Smithsonian, can't you?
    Mr. Samper. Pardon me?
    Ms. Norton. Can't you become a member of the Smithsonian?
    Mr. Samper. Yes, we do have a general membership program.
    Ms. Norton. How much is that cost?
    Mr. Samper. It overall brings $15 million in contributions 
a year, for a general membership.
    Ms. Norton. What does a member of the public get for that?
    Mr. Samper. Basically the subscription to our Smithsonian 
Magazine, and a discount in our stores and for some of the 
higher-end donors, we organize some special events during the 
year.
    Ms. Norton. How much of the Smithsonian has been taken 
outside of the District of Columbia?
    Mr. Samper. Of that program? It is nationwide.
    Ms. Norton. No. Generally. I am sorry. I recognize that 
probably membership, you get the magazine. I am not sure the 
store--big access to the store wouldn't mean the same to you if 
you lived outside the region.
    But in what other ways have you drawn in others around the 
country? I know you have fund-raisers who come from around the 
country. I know your citizen board members come from around the 
country.
    Mr. Samper. We certainly do. We have tried to develop a 
number of ways to connect people across America to other people 
out there. For example, we have a program called Smithsonian 
Affiliations that is a way that we collaborate with museums 
around the country for loan collections where we will 
collaborate with them to do an annual conference with them. We 
just had that meeting about 2 or 3 weeks ago.
    We have about 150 museums. These are independent entities 
that are affiliated with the Smithsonian where we collaborate 
on an ongoing basis. We have a number of educational activities 
and programs that we are doing across--just to mention one, for 
example, the National Science Resources Center, which is a 
joint program that we have with the National Academy of 
Sciences, is assigning educational materials that can go into 
classrooms; and at this point, it is being used in about 20 
percent of schools around America.
    So there are a number of ways we are trying to connect with 
the communities across America, and we are certainly looking 
for additional ways to expand it.
    I should add, as well, that we are aggressively trying to 
put more of our content exhibitions and collections on the Web 
because we recognize that not everyone can come to Washington. 
So we have been doing this, and we have been fortunate to have 
an increasing number of Web visitors. Last year alone, we had 
about 150 million Web visitor sessions. These are people across 
America and other countries around the world accessing some of 
the Smithsonian content, and it is an area we are investing in 
aggressively.
    Ms. Norton. Has the Smithsonian ever engaged the services 
of first-class marketing and public affairs consultants?
    Mr. Samper. Yes, we have some expertise in house, and for 
particular projects, we may go outside. And in particular cases 
where there----
    Ms. Norton. Yeah. I mean beyond--I am talking about major 
fund-raising consultants. I mean, beyond the exhibitions which 
I do regard, as you do, as a major opportunities for fund-
raising.
    Mr. Samper. We do on occasion hire particular consultants 
to help us develop fund-raising strategies or marketing 
materials.
    Ms. Norton. Have you ever had a capital campaign?
    Mr. Samper. Not in the recent past.
    Ms. Norton. I recognize that the Federal Government is 
supposed to and has done some funding of your capital assets, 
but that is where you have been driven into the ground almost 
because getting money for bricks and mortar, especially for a 
museum, is particularly difficult.
    Mr. Samper. We have done campaigns targeted to particular 
projects, Madam Chair. So, for example, I mentioned the 
National Museum of the American Indian, which is where we went 
out and tried to secure the resources and secured a couple 
hundred million dollars for activities from across the country, 
and that was extremely successful as a way of doing it. These 
are tied into particular areas.
    Ms. Norton. What is the endowment?
    Mr. Samper. It is close to $900 million.
    Ms. Norton. Have you ever considered an endowment, a fund-
raising endowment campaign?
    Mr. Samper. Absolutely. And that is one of the options that 
we are always looking at and trying to----
    Ms. Norton. How long do you have to look at it? When the 
Congress continues to underfund one of its preeminent 
treasures, how long do you have to look to recognize that one 
has to ratchet up fund-raising with entirely fresh eyes and an 
entirely new vision?
    I find $900 million for the Smithsonian to be small, 
frankly.
    Mr. Samper. I agree with you completely. It is a very small 
endowment, given the size of our budgets. We are looking for 
ways to expand that, including the possibility of doing a 
national campaign. We are currently exploring eight or nine 
options to secure additional funding for the Smithsonian.
    Ms. Norton. Far be it from me to pretend to be a 
marketing--have any marketing expertise, I assure you I do not. 
That is nowhere to become clear.
    But this much I do know: 20 million visitors come here 
every year, and if they thought the Smithsonian--many of them 
are school children, many of them are families--if they thought 
that the Smithsonian wasn't going to be there in the form that 
they understood it--it seems to me that people would understand 
that you don't keep an American institution like this going 
just by saying to the appropriators, keep ponying up.
    And particularly if we are also to continue to not charge 
admission, which brings me to the butterflies exhibit.
    You and I have discussed this in our office, perhaps I 
should let you lay out for the record the reason that you 
decided that this had to be done, and how it will be done if 
you get to do it.
    Mr. Samper. Thank you, Madam Chair.
    As you know, the National Museum of Natural History 
introduced what has been a very successful insect zoo back in 
1971, many years ago, and over the years we have been looking 
at ways to expand it. It has been one of the most popular 
attractions that we have had over the years.
    Ms. Norton. What percentage, if any, of Federal funds went 
into building the butterfly zoo?
    Mr. Samper. The current project? The expansion of the 
butterflies?
    Ms. Norton. As opposed to what project?
    Mr. Samper. I wasn't sure if you were referring to the 
original insect zoo that we built.
    Ms. Norton. Is this on the same premises?
    Mr. Samper. This is adjacent to those premises.
    What we have decided is to double----
    Ms. Norton. So the premises--the original premises were 
built by the Federal Government?
    Mr. Samper. Absolutely. They are in the National Museum of 
Natural History.
    Ms. Norton. And the adjacent premises, what percentage if 
any were built by----
    Mr. Samper. This is within the main building of the 
National Museum of Natural History at our location which we 
call Hall 30, which is the hall on the second floor adjacent to 
the current insect zoo. And our intention, our plan there is to 
expand and build an exhibition that would allow us to have live 
butterflies, to be able to tell the story about the core 
evolution between plants and insects.
    This is building not only on our experience, but the very 
successful experiences we have seen in several butterfly houses 
and facilities across the United States in a number of 
locations.
    Ms. Norton. Is this permanent, this exhibition?
    Mr. Samper. Certainly ongoing year-round for several years. 
We don't use the word "permanent" because we don't know how it 
will go, but certainly for the foreseeable future it would be.
    The challenge that we face, Madam Chair, is that the 
operating cost, the annual operating cost of a butterfly 
facility is very large. This is tied to the very short life 
cycles of the butterflies, which in many species are just a few 
days. And the way the butterfly facilities are run is that 
these are raised in a variety of countries around the world. 
They are imported into the United States weekly. They have to 
be raised there by expertise--by caretakers that know about 
this; they have to fulfill all of the requirements imposed by 
USDA. And we also have to raise all of the plants that are 
growing in there so they are completely free of chemicals.
    The net impact of all of this is, the annual operating cost 
of the facility is $900,000 a year, which is clearly a very 
expensive operation and proposition. We were struggling in 
looking at this. On the one hand, the position of how wonderful 
it would be to offer this opportunity to our visitors, and on 
the other hand, our basic budgets were not enough to be able to 
support this kind of operation as an additional expense.
    At that point, our decision was to look at this and to 
design it, at both the facility and the program, in a way that 
would allow us to bring this experience to our visitors but to 
ask them to contribute to the operating costs, taking care to 
make sure that the facility would also be available on a weekly 
basis, 1 day a week free of charge, particularly for school 
groups, because we recognize that it is really important to 
have this. And we are also going to continue looking for 
potential sponsors that would allow us to bring in additional 
days free of charge to people.
    Our general commitment, and my own view, Madam Chair, just 
for the record is, I do agree with you, that the admission to 
the Smithsonian--having free admission is important, and it is 
part of what the Smithsonian stands for.
    Ms. Norton. It is so important that--well, let me ask you 
this question. Did you bring, before you announced--first of 
all, what is the fee that you propose?
    Mr. Samper. We are proposing an entrance fee of $5. This 
would be to cover the operating cost. We are estimating an 
attendance of about 200,000 people a year.
    Ms. Norton. So that would cover the operating cost?
    Mr. Samper. Yes, it would, ma'am.
    Ms. Norton. I asked you before about endowment. Did you 
consider seeking an endowment to allow this facility to remain 
free to the public as has been the case for over 100 years?
    Mr. Samper. Absolutely. And it is still one of the options 
that we are pursuing. That would require an endowment of about 
$20 million just to offset the operating costs.
    Ms. Norton. Over time, yes.
    Mr. Samper. Well, $20 million at a 5 percent payout rate 
would give you about $1 million. So if we were to find a donor 
that would provide us with $20 million endowment, we would 
certainly welcome that contribution and be able to----
    Ms. Norton. Did you seek $1 million that somebody might 
have been willing to provide you?
    Mr. Samper. What we did seek, Madam Chair, is the cost of 
building this facility in Hall 30. The total cost is $3 
million, and that is being brought in by private contributions. 
We have already secured about $2 million, just over $2 million 
for that. We are working to secure the additional money.
    But there are two important costs here. One is the cost of 
building the facility, which is what we usually find people are 
willing to contribute to. And the other is the ongoing 
operational cost, and that is the cost that, in our experience, 
is extremely difficult to maintain or to cover on a sustained 
basis from contributions.
    Ms. Norton. I am not at all unsympathetic with what you 
have done, and so pleased that you have come forward with this 
really unusual way to not only fascinate the public and 
children, but to help them learn something by seeing what 
butterflies do.
    Did you approach the appropriators before you decided that 
we should charge a fee?
    Mr. Samper. It is something that we mentioned to some of 
the key staff in the committees as part of our conversations, 
and it was something that was brought to the Board of Regents 
before we decided to go ahead with this.
    Ms. Norton. Well, Congress is not--the reason I raise 
Congress as the ultimate authority here is, very frankly, I 
cannot think of any way to say to the next institution within 
the Smithsonian or, for that matter, the next national treasure 
funded by the United States that they must hold to the free 
admission charge for 20 million visitors.
    This is not for my folks. We have been there, done that, 
over the years. I am a native Washingtonian, third generation, 
people here since 1850. You can't find anything that I haven't 
gone to.
    This affects mostly the constituents of my colleagues. Half 
the people who come here every year are school children, many 
school groups. There are many schools who believe you are not 
well educated if the junior high school class or high school 
class hasn't made a visit to Washington. I am not pretending 
that $5 is a lot of money for most of us. But I know that many 
classes, once they raise the money to get here, will find $5 
prohibitive.
    But the difficulty I have with it is simply the precedent. 
I just don't know how to say this to an institution that comes 
with a one-of-a-kind exhibition that you are not--you are not 
the Smithsonian, or you are not the Museum of Natural History, 
so therefore you can't do it. Either there is a policy or not a 
policy.
    And it does seem to me that the appropriators would not 
jump out in front on this because they are not about to come up 
with $1 million, and they are the ones that hold the purse. But 
that doesn't speak for the rest of us. And I do not believe 
that if Members of Congress believe that we are now opening the 
floodgates--and that is what it would be, that is exactly what 
it will be.
    We have underfunded every single institution, hugely so; 
and it is not going to get better, which is why you see me 
pressing you on private funding, because I believe--I have been 
saying to Mr. Small, why are you out there raising all that 
money?
    If there had been oversight, he would have been doing 
exactly the right thing. But I do not believe that the 
alternative is to go down the road to fees for service. I just 
don't see how one can square that with what all the other 
institutions are doing. And I can guarantee you that any of 
your colleagues worth their salt are looking to see whether you 
get away with it so that they can plan to do the same thing. 
That is the issue I have with it.
    As I said to you in my office when you were kind enough to 
come see me after you were appointed, I would like to work with 
you, literally to work with you, in the region. I even tried 
out some ideas. I think all these people, gardening and nature 
and global warming, and all these stores that sell things that 
you set up in your backyard, things to keep it, I just can't 
believe there isn't $1 million out there.
    Then we will think of ways to get more millions, rather 
than to say, Listen up, everybody, the Smithsonian that you 
knew, which meant that whether you were rich or poor, young or 
old, you didn't have a dime to go into the Kennedy Center for 
one of those shows, there are a few places you could come. The 
capital of the United States is not going to charge you 
admission. They will take away your book bag, but you can come 
in there free.
    You can come into the monument free, you can come into any 
part of the Smithsonian; and it has been that way for more than 
100 years, and the Congress hasn't broken that promise. And I 
can tell you this, Dr. Samper. Carry back; let 'em break it, 
and it will be the last time they break it.
    I am not here threatening you. I am here saying, I want to 
work with you to do it. I want to work with you to find the 
first million dollars in this region.
    This is one of America's upscale regions, full of all kinds 
of technology, full of McMansions, all of them live in and 
around here. Many of them live in the District of Columbia, 
full of lobbyists. The notion that there isn't somebody out 
there to do a good deed, not for you, but for school children 
who will be told, sorry, unless your group happens to be here 
on a certain day of the week, you can't get in to see the one 
thing, the one thing you would have heard about about the 
Smithsonian.
    If you are a school child, the rest of the world may not 
know about these butterflies, but the word is going to travel 
about these butterflies throughout the United States and the 
world. That is just how exciting this is.
    Well, we didn't do the right thing; we didn't fund it. But 
I don't think Congress should let you do the wrong thing and 
open the floodgates so that every institution will say, what is 
the difference between us and the Smithsonian?
    So I am putting you on notice to say that I will do 
everything I can to see it doesn't happen. Go out and raise 
some more money after you raise this money. I want you to come, 
you and your development people to come see me within the next 
couple of weeks, and let's have discussions about--let them do 
some homework, and I am going to have my staff do some homework 
about how we can fund the first year, and then perhaps go at 
funding the butterflies thereafter.
    Mr. Samper. Thank you, Madam Chair. I appreciate your 
offer, and we will definitely take you up on that. And I trust 
that we will be able to do that. We are trying to fund-raise, 
and certainly if we are fortunate enough to have someone that 
is willing to give us that first million dollars but also to 
secure this for the future, to secure that $20 million 
endowment, we certainly look forward to it.
    And I think you mentioned it as well. If this is such a 
wonderful experience that we feel we should bring to the 
American people and to all the people here because it will be a 
good learning experience. We are sorry it has come to that, but 
as you know and you have recognized, clearly it recognizes how 
stretched our base budget and operating costs are.
    Ms. Norton. I can't blame you. I know where the blame lies. 
You are sitting here with it today. I only have two more 
questions.
    One comes from the chairman of the committee. In January of 
this year the Smithsonian Inspector General, A. Sprightley 
Ryan, submitted a report to the audit and review committee and 
the Smithsonian Board of Regents detailing then-Secretary 
Small's expenses between 2000 and 2005 that are unsupported or 
inadequately supported by documentation. Those, of course, are 
the expenses that you obsess about that had been ratified by 
the Board of Regents after the fact.
    At a Senate hearing in April, these unapproved expenses 
were stated to total $90,000. What actions have been taken 
since that time to recover documentation for these expenses?
    Mr. Samper. Madam Chair, in any case where the Inspector 
General takes action, such as Mr. Small or any other employee 
of the institution, as a matter of fact, we try and secure the 
documentation, making sure that everything is there. If we find 
that an expense in the end was not authorized and didn't go 
through the right procedures, we will then take appropriate 
measures to try and recover some of that funding or, if 
necessary, issue appropriate tax----
    Ms. Norton. So attempting to recover major funding and some 
of the documentation?
    Mr. Samper. For some of these, anything that was not 
supported, absolutely.
    Ms. Norton. I thought that they were ratified after the 
fact.
    Mr. Samper. There were certain questions that were raised 
in terms of particular types of expenses, and whether those 
types of expenses may be covered under the original terms. And 
that was what was the action in terms of the Regents.
    Ms. Norton. That is what you spoke about in terms of the 
intent. You need to--was counsel supported when this was done?
    Mr. Samper. Pardon me?
    Ms. Norton. Was counsel consulted when the clarification 
was issued? All right, we will cover these expenses. Was 
counsel consulted when that was done?
    Mr. Samper. I believe they were, Madam Chair.
    Ms. Norton. I would like you to provide the papers from 
counsel and others that indicated the clarification that this 
$90,000 that the Inspector General found were unapproved 
expenses. I would like to see whatever that paper from counsel 
and from the Board of Regents indicated, that that was because 
the guidelines seemed to be straightforward.
    The intent of the guidelines wasn't clear; as read, most 
have thought that there was a violation of the guidelines, and 
I believe that the Inspector General thought there was a 
violation of the guidelines. So if, after the fact, you say, 
you know, what we really meant was this, then we would like to 
see the documentation from the Board and from counsel to that 
effect.
    Mr. Samper. I will be glad to look for that and provide it 
to you, Madam Chair.
    Ms. Norton. Thank you.
    One final question. We are having nice little discussion, 
phone calls from constituents, Members about the highly 
regarded Jazz Cafe--it is an entrepreneurial work, and one that 
is in magnificent keeping with your mission--a performance 
every Friday night at the National Museum of Natural History. 
Have these performances been discontinued? Will they be 
discontinued at the end of June? Could you give us a status 
report on the Jazz Cafe?
    Mr. Samper. Yes, Madam Chair. As a regular customer of the 
Jazz Cafe myself and someone that appreciates this, I certainly 
recognize the value that this has done in terms of reaching out 
to the constituencies in Washington. The answer is, we have at 
this point secured enough funding to keep the program open 
through the end of the fiscal year. So it will not be closing 
in June.
    Ms. Norton. Terrific. So will it close the end of 
September?
    Mr. Samper. We are currently pursuing additional options 
for sponsorship. Again, like we are discussing----
    Ms. Norton. So there was no sponsor. How much was the 
public charged?
    Mr. Samper. --per year the sponsorship, but we are looking 
for at this point, Madam Chair, $100,000.
    Ms. Norton. To go to the end of the year?
    Mr. Samper. No. No. It is actually quite a manageable 
figure. We have had some sponsors in the past. We have been 
fortunate. We are currently looking for additional sponsors.
    So again, this is another area where we would be very happy 
to work with you. But the program at a cost of bringing this 
performance, which certainly I agree fits in with the mission, 
requires that, and we are clearly working on trying to secure 
that sponsor, so at this point we can keep it through the end 
of the fiscal year.
    And if we can secure the sponsorship, we look forward to 
having the Jazz Cafe continue.
    Ms. Norton. If I may say so, for how much, what is the 
public charged?
    Mr. Samper. There is a cover charge and if I am not 
mistaken, it is $10 per person.
    Ms. Norton. And then what do you get when you get in there? 
Are there any refreshments of any kind, sir?
    Mr. Samper. There are refreshments that are available at a 
charge; and Restaurant Associates that provides the catering 
services there, provides meals for a cost.
    Ms. Norton. Meals? Is wine available?
    Mr. Samper. There is a buffet service where people can go 
in and purchase the food. So they can be able to eat.
    Ms. Norton. Is wine available?
    Mr. Samper. Oh, in the--yes, there is.
    Ms. Norton. Okay. It occurs to me that there should be a 
perfect synergy, talking about a jazz cafe out of all places, 
the Museum of--was it Natural History?
    Mr. Samper. Natural History, yes, ma'am.
    Ms. Norton. Part of the Smithsonian, and the music 
industry. Has the music industry or any part of it been--not to 
mention all the people who make iPods and the contracts--and 
don't let me go on on that.
    Were any of them sponsors?
    Mr. Samper. Not to date. We have been fortunate to have 
sponsorship from some of the media companies. Some hotels in 
the region have provided some sponsorship, but I don't believe 
that the music industry has provided support to date.
    Ms. Norton. Is there a development officer for that, for 
the Jazz Cafe?
    Mr. Samper. Not for the Jazz Cafe. There is a jazz 
development officer for the Museum of Natural History, and this 
is one of the activities that they currently include in their 
portfolio.
    Ms. Norton. Well, again, you know, speaking as an amateur 
on this, if there is food served in there, if there is wine 
served in there, if there is music served in there, the music 
industry is having some difficulties.
    Now, if anything, that should make them want to program 
what they do by getting into a Federal facility with 
sponsorship. Again, I suppose that you gathered from a lot of 
my questions I am questioning the development activities of the 
Smithsonian and believe that if our underfunding is clear, the 
Smithsonian needs to take another look at its own development 
activities and ask if it is 21st century, can it compete in the 
market where it exists?
    Mr. Samper. Madam Chair, we certainly--clearly, we 
recognize that we see the Smithsonian as this partnership. We 
are trying to secure additional resources, and as I mentioned 
before, we have come a long ways in the last 10 years, as you 
mentioned, securing $1 billion which has been the teamwork of 
many museum directors. Secretary Small and others have been 
important.
    But I agree with you that we are always looking for ways to 
strengthen that as we move forward.
    Ms. Norton. May I remind you that when we have asked for 
documentation or documents that they are to be to the committee 
within 30 days.
    May I ask the Ranking Member if you have any questions 
beyond mine?
    I want to thank you very much, Dr. Samper. It is very 
important testimony. You will note that I see opportunities for 
the Smithsonian to do better. I think there are a lot of 
opportunities for the Congress to do better, too, but funding--
and you need oversight.
    Again, it is very easy to say now that the press did the 
oversight, that Mr. Small was not what he should be. What I 
want to say right here, there was no oversight, no oversight to 
speak of. The backdated oversight, I should say to you, is 
troublesome, and it does not relieve the Board of Regents of 
the fiduciary responsibility. And some of them are lawyers, and 
I think would agree that on any private institution, that would 
have been seen--that would have been seen as a violation of 
fiduciary responsibility not only for the Secretary but for 
those whose job it was to make sure that the Secretary did as 
the guidelines specifically set out.
    I just needed to get that on the record.
    What is most important about this hearing for me is the 
contrast between your organizations, why that contrast exists, 
one's performing arts institution, half of their private funds 
come from people who come to see what they are doing. Much 
harder for an institution where you have to often get people to 
understand what you are doing in order to get them in the door.
    The real question becomes, how do you get them, how do you 
lure them, whether or not better, more sophisticated 
development could be done, whether or not the treasures that 
are in this complex of institutions are well understood, how to 
make them better understood. I regard that as a wonderful 
challenge. We just crossed over into the 21st century, so there 
is plenty of time.
    I thank you for your testimony. I look forward to working 
with you specifically on funding not only from the Congress, 
but on your fund-raising in the private sector.
    Mr. Samper. Thank you, Madam Chair. We appreciate your 
attention and this opportunity to testify before you, and we 
look forward to working with this, which as you said is a 
partnership.
    We appreciate the support that we get from Congress and 
from the administration. We will do our share with private 
fund-raising. And as I told you when we met privately, we are 
also trying to learn from our own mistakes, in some cases, and 
are trying to strengthen our governance. So I have no doubt we 
will have a stronger Smithsonian.
    Ms. Norton. Thank you for your testimony. The hearing is 
adjourned.
    [Whereupon, at 1:45 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6683.005
    
    [GRAPHIC] [TIFF OMITTED] T6683.006
    
    [GRAPHIC] [TIFF OMITTED] T6683.007
    
    [GRAPHIC] [TIFF OMITTED] T6683.008
    
    [GRAPHIC] [TIFF OMITTED] T6683.009
    
    [GRAPHIC] [TIFF OMITTED] T6683.010
    
    [GRAPHIC] [TIFF OMITTED] T6683.011
    
    [GRAPHIC] [TIFF OMITTED] T6683.012
    
    [GRAPHIC] [TIFF OMITTED] T6683.013
    
    [GRAPHIC] [TIFF OMITTED] T6683.014
    
    [GRAPHIC] [TIFF OMITTED] T6683.015
    
    [GRAPHIC] [TIFF OMITTED] T6683.016
    
    [GRAPHIC] [TIFF OMITTED] T6683.017
    
    [GRAPHIC] [TIFF OMITTED] T6683.018
    
    [GRAPHIC] [TIFF OMITTED] T6683.019
    
    [GRAPHIC] [TIFF OMITTED] T6683.020
    
    [GRAPHIC] [TIFF OMITTED] T6683.021
    
    [GRAPHIC] [TIFF OMITTED] T6683.022
    
    [GRAPHIC] [TIFF OMITTED] T6683.023
    
    [GRAPHIC] [TIFF OMITTED] T6683.024
    
    [GRAPHIC] [TIFF OMITTED] T6683.025
    
    [GRAPHIC] [TIFF OMITTED] T6683.026
    
    [GRAPHIC] [TIFF OMITTED] T6683.027
    
    [GRAPHIC] [TIFF OMITTED] T6683.028
    
    [GRAPHIC] [TIFF OMITTED] T6683.029
    
    [GRAPHIC] [TIFF OMITTED] T6683.030
    
                                    

</pre></body></html>
